<html>
<title> - APPLICATIONS FOR INFORMATION TECHNOLOGY RESEARCH & DEVELOPMENT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





                      APPLICATIONS FOR INFORMATION
                   TECHNOLOGY RESEARCH & DEVELOPMENT

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 14, 2013

                               __________

                            Serial No. 113-4

                               __________

 Printed for the use of the Committee on Science, Space, and Technology







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





       Available via the World Wide Web: http://science.house.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

78-820 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
ANDY HARRIS, Maryland                SCOTT PETERS, California
RANDY HULTGREN, Illinois             DEREK KILMER, Washington
LARRY BUCSHON, Indiana               AMI BERA, California
STEVE STOCKMAN, Texas                ELIZABETH ESTY, Connecticut
BILL POSEY, Florida                  MARC VEASEY, Texas
CYNTHIA LUMMIS, Wyoming              JULIA BROWNLEY, California
DAVID SCHWEIKERT, Arizona            MARK TAKANO, California
THOMAS MASSIE, Kentucky              VACANCY
KEVIN CRAMER, North Dakota
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
                                 ------                                

                        Subcommittee on Research

                   HON. LARRY BUCSHON, Indiana, Chair
STEVEN M. PALAZZO, Mississippi       DANIEL LIPINSKI, Illinois
MO BROOKS, Alabama                   ZOE LOFGREN, California
STEVE STOCKMAN, Texas                AMI BERA, California
CYNTHIA LUMMIS, Wyoming              ELIZABETH ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
















                            C O N T E N T S

                      Thursday, February 14, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Larry Bucshon, Chairman, Subcommittee 
  on Research, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     5
    Written Statement............................................     5

Statement by Representative Daniel Lipinski, Ranking Minority 
  Member, Subcommittee on Research, Committee on Science, Space, 
  and Technology, U.S. House of Representatives..................     7
    Written Statement............................................     8

                               Witnesses:

Dr. Kelly Gaither, Director, Visualization Lab, Texas Advanced 
  Computing Center, University of Texas, Austin
    Oral Statement...............................................    10
    Written Statement............................................    13

Dr. Kathryn McKinley, Principal Researcher, Microsoft
    Oral Statement...............................................    20
    Written Statement............................................    22

Dr. Ed Lazowska, Bill and Melinda Gates Chair in Computer Science 
  and Engineering, University of Washington
    Oral Statement...............................................    34
    Written Statement............................................    36

Discussion.......................................................    47

 
                      APPLICATIONS FOR INFORMATION
                   TECHNOLOGY RESEARCH & DEVELOPMENT

                              ----------                              


                      THURSDAY, FEBRUARY 14, 2013

                  House of Representatives,
                                   Subcommittee on Research
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:01 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Larry 
Bucshon [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Bucshon. The Subcommittee on Research will come to 
order. Good afternoon. Welcome to today's hearing entitled 
``Applications for Information Technology Research & 
Development.'' In front of you are packets containing the 
written testimony, biographies, and truth-in-testimony 
disclosures for today's witness panel. I recognize myself now 
for five minutes for an opening statement. First, I want to 
welcome everyone today. This is my first hearing as the 
Chairman of the Research Subcommittee and I look forward to 
working with the Ranking Member, Mr. Lipinski, on this and many 
other issues in the 113th Congress.
    The topic of this afternoon's hearing, ``Applications for 
Information Research & Development,'' is important to our 
national security, global competitiveness, and technological 
innovation. This hearing will provide us with examples of 
practical applications and the benefits of federal investment 
in networking and information technology, or NITRD research.
    The Networking and Information Technology Research and 
Development Program, or NITRD, was originally authorized in 
1991 in the High Performance and Computing Act. It coordinates 
the networking and information R&D efforts of 15 federal 
agencies, including DHS, NASA, NIH, EPA, and the Department of 
Energy. The program is the main R&D investment portfolio of 
member agencies in networking, computing, software, 
cybersecurity, and related informational technologies totaling 
over $3.7 billion in fiscal year 2013. R&D in NIT provides a 
greater understanding of how to protect essential systems and 
networks that support fundamental sections of our economy, from 
emergency communications and power grids to air traffic control 
networks and national defense systems.
    NITRD works to prevent or minimize disruptions to critical 
information infrastructure to protect public and private 
services, to detect and respond to threats while mitigating the 
severity of and assisting in the recovery from those threats in 
an effort to support a more stable and secure Nation.
    As technology rapidly advances, the need for NIT research 
and development continues to evolve. NITRD works to prevent 
duplicative and overlapping R&D efforts, thereby enabling more 
efficient use of brain power and resources while maintaining--
while remaining good stewards of the taxpayers' money.
    Today, our witnesses will share their professional 
perspectives on how NITRD applies to the quality of Americans' 
everyday lives. I would like to now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for an 
opening statement.
    [The prepared statement of Mr. Bucshon follows:]

              Prepared Statement of Chairman Larry Bucshon

    First, I want to welcome everyone today. This is my first hearing 
as Chairman of the Research Subcommittee and I look forward to working 
with the Ranking Member, Mr. Lipinski, on this and many other issues in 
the 113th Congress.
    The topic of this afternoon's hearing, Applications for Information 
Research & Development, is important to our national security, global 
competitiveness and technological innovation. This hearing will provide 
us with examples of practical applications and the benefits of Federal 
investment in networking and information technology R&D.
    The Networking and Information Technology Research and Development 
program, or NITRD, was originally authorized in 1991 in the High 
Performance and Computing Act. It coordinates the networking and 
information R&D efforts of 15 Federal member agencies, including DHS, 
NASA, NIH, EPA and the Department of Energy. The program is the main 
R&D investment portfolio of member agencies in networking, computing, 
software, cyber security and related information technologies totaling 
over $3.7 billion in FY2013.
    R&D in NIT provides a greater understanding of how to protect 
essential systems and networks that support fundamental sectors of our 
economy, from emergency communications and power grids to air-traffic 
control networks and national defense systems. NIT R&D works to prevent 
or minimize disruptions to critical information infrastructure, to 
protect public and private services, to detect and respond to threats 
while mitigating the severity of and assisting in the recovery from 
those threats, in an effort to support a more stable and secure nation.
    As technology rapidly advances, the need for NIT research and 
development continues to evolve. NITRD works to prevent duplicative and 
overlapping R&D efforts, thereby enabling more efficient use of 
brainpower and resources, while remaining good stewards of taxpayer's 
money.
    Today our witnesses will share their professional perspectives on 
how NITRD applies to the quality of American's everyday lives.
    Mr. Lipinski. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing and also congratulate you on being 
named the Chair of this Subcommittee. I have been either Chair 
or Ranking Member of this Subcommittee now for three 
Congresses. I love this Committee and this Subcommittee. I look 
forward to working with you. I had a very good relationship 
with the Chair last Congress, and I think we could work very 
well together and get some good things done in these next two 
years. I am looking forward to that.
    The House has passed bipartisan legislation reauthorizing 
the NITRD program in the past two Congresses. So I believe we 
can get something done again in this Congress. Hopefully, the 
third time is the charm with the Senate.
    The most problematic issue threatening the NITRD program 
right now are the cuts and uncertainty in top-line R&D budgets. 
While authorizing NITRD wouldn't solve these problems, it would 
signal the government's continuing interest in investing in 
these critical research areas in a partnering with industry to 
help set R&D and workforce training priorities that prepare our 
nation for the future.
    The NITRD program evolved from a federal program 
established under the High Performance Computing Act of 1991, 
as the Chairman said. That Act provided the funding that led to 
the development of Mosaic in 1993, the World Wide Web browser 
that made the Internet user friendly and led to its explosion 
in the 1990s. I am proud to note that Mosaic was created by a 
team of programmers at the federally funded National Center for 
Supercomputing Applications at the University of Illinois. 
Netscape founder Marc Andreessen, who was a leader of the 
Illinois team before launching his company, was quoted as 
saying ``if it had been left to private industry, it wouldn't 
have happened, at least not until years later.''
    Without question, the 1991 Act sets the stage for a 
coordinated federal R&D investment strategy that has 
underpinned U.S. leadership in networking and information 
technology over the past 2 decades. In Illinois, that 
leadership in R&D is helping to complete work on a Blue Waters 
project, a petascale supercomputer that will maintain the 
University of Illinois' position at the forefront of high 
performance computing research.
    But as with many other areas of R&D, we can no longer take 
for granted U.S. leadership in NIT. As noted by Dr. McKinley 
and his testimony, China, Japan--let me go back and--I think I 
may have said Mr.--make sure I said Dr. McKinley in her 
testimony--China, Japan, Germany, and several other countries 
are increasing their investments in NIT R&D and in their 
capacity to convert R&D into new commercial technologies.
    As we heard from witnesses at a hearing on U.S. 
competitiveness last week, R&D no longer occurs in simple 
linear progression from basic research to commercial product. 
There may be a clear role for the government in basic research, 
including use-inspired basic research; and a clear role for 
industry in the last 1 to three years of product development 
work. But there are multiple gaps between those efforts. And 
our economy benefits exponentially when our R&D portfolio 
includes partnerships that facilitate collaboration among 
universities, national labs, and industry. This applies as much 
to NIT as to any other area of R&D. In fact, historically, some 
of the most economically important public-private partnerships 
have been in the NIT sector.
    We must also join forces in addressing NIT education and 
workforce challenges. While the Federal Government has a role 
here, I would like to hear our witnesses' input on that. This 
is also a problem that demands the attention of state and local 
government, as well as the private sector. As I have noted 
several times in the past, I am concerned about trends in 
outsourcing of even high skills jobs. At the same time however, 
we hear anecdotally of thousands of U.S. NIT jobs that go 
unfulfilled due to a lack of qualified applicants. There is no 
doubt we need to do a better job overall in preparing our 
students for jobs of today and in the future, and in 
particular, we need to graduate more computer science majors.
    I hope the Chairman will allow me to go a little over time 
after I praised him at the beginning. Now, I don't have too 
much longer.
    Finally, because PCAST discusses this topic in their latest 
review of NITRD, I want to bring up educational technology and 
the possible topic of discussion for this hearing. By that I 
mean R&D on technology to improve learning outcomes and 
increase access to high-quality education, including STEM 
education. One of the hottest topics today in higher education 
is Massively Open Online Courses, or MOOCs. Many of the MOOC 
courses are in computer science and engineering. I wonder how 
this is changing the NIT education landscape, as well as what 
the implications and opportunities are for education research. 
This is an also expansive enough topic on its own and maybe the 
Subcommittee would consider holding a separate hearing to look 
more carefully at these issues.
    With that, I want to thank all the witnesses for being here 
today, in particular Dr. Lazowska, who is becoming an old hand 
at this by now. I look forward to all your testimony and yield 
back.
    [The prepared statement of Mr. Lipinski follows:]

     Prepared Statement of Ranking Minority Member Daniel Lipinski

    Thank you Chairman Bucshon for holding this hearing. And 
congratulations on being selected to Chair this Subcommittee.
    The House has passed bipartisan legislation reauthorizing the NITRD 
program in the past two Congresses, so I believe that we can get 
something done again this Congress. Hopefully the third time is the 
charm for the Senate.
    The most problematic issues threatening the NITRD program right now 
are the cuts and uncertainty in top-line R&D budgets. While 
reauthorizing NITRD wouldn't solve these problems, it would signal the 
government's continuing interest in investing in these critical 
research areas, and in partnering with industry to help set R&D and 
workforce training priorities that prepare our nation for the future.
    The NITRD program evolved from a federal program established under 
the High Performance Computing Act of 1991. That Act provided the 
funding that led to the development of Mosaic in 1993, the World Wide 
Web browser that made the Internet user-friendly and led to its 
explosion in the 1990s. I am proud to note that Mosaic was created by a 
team of programmers at the federally funded National Center for 
Supercomputing Applications at the University of Illinois. Netscape 
founder Marc Andreeson, who was a leader of the Illinois team before 
launching his company, was quoted as saying, ``If it had been left to 
private industry, it wouldn't have happened, at least, not until years 
later.'' Without question the 1991 Act set the stage for a coordinated 
federal R&D investment strategy that has underpinned U.S. leadership in 
networking and information technology over the past two decades. In 
Illinois, that leadership in R&D is helping to complete work on the 
Blue Waters project, a petascale supercomputer that will maintain the 
University of Illinois's position at the forefront of high performance 
computing research.
    But as with many other areas of R&D, we can no longer take for 
granted U.S. leadership in NIT. As noted by Dr. McKinley in her 
testimony, China, Japan, Germany, and several other countries are 
increasing their investments in NIT R&D, and in their capacity to 
convert R&D into new commercial technologies. As we heard from 
witnesses at a hearing on US Competitiveness last week, R&D no longer 
occurs in a simple linear progression from basic research to commercial 
product. There may be a clear role for the government in basic 
research, including use-inspired basic research, and a clear role for 
industry in the last 1-3 years of product development work. But there 
are multiple gaps between those efforts, and our economy benefits 
exponentially when our R&D portfolio includes partnerships that 
facilitate collaboration among universities, national labs, and 
industry. This applies as much to NIT as to any other area of R&D. In 
fact, historically, some of the most economically important public-
private partnerships have been in the NIT sector.
    We must also join forces in addressing NIT education and workforce 
challenges. While the federal government has a role here--and I'd like 
to hear our witnesses' input on that--this is a problem that also 
demands the attention of state and local government as well as the 
private sector. As I have noted several times in the past, I am 
concerned about trends in outsourcing of even high-skills jobs. At the 
same time, however, we hear anecdotally of thousands of U.S. NIT jobs 
that go unfilled due to a lack of qualified applicants. \1\ There is no 
doubt we need to do a better job overall in preparing our students for 
jobs of today and the future, and in particular we need to graduate 
more computer science majors.
---------------------------------------------------------------------------
    \1\ Dr. McKinley cites 3,400 unfilled research and engineering 
positions at Microsoft alone.
---------------------------------------------------------------------------
    Finally, because PCAST discusses this topic in their latest review 
of NITRD, I want to bring up educational technology as a possible topic 
of discussion for this hearing. By that I mean R&D on technologies to 
improve learning outcomes and increase access to high-quality 
education, including STEM education. One of the hottest topics today in 
higher education is Massively Open Online Courses, or MOOCs. Many of 
the MOOC courses are in computer science and engineering. I wonder how 
this is changing the NIT education landscape, as well as what the 
implications and opportunities are for education research. But this is 
also an expansive enough topic on its own that maybe Chairman Bucshon 
will consider holding a separate hearing to look more carefully at 
these issues.
    With that, I want to thank all of the witnesses for being here 
today, and in particular Dr. Lazowska who is becoming an old hand at 
this by now. I look forward to all of your testimony.
    Chairman Bucshon. Thank you, Mr. Lipinski.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time, I would like to introduce our witnesses. Our 
first witness is Dr. Kelly Gaither. She is the Director of 
Visualization and a Senior Research Scientist at the Texas 
Advanced Computing Center. Additionally, she serves as the area 
Co-Director for Visualization and the National Science 
Foundation-funded XSEDE project. Dr. Gaither received her 
doctorate degree in Computational Engineering from Mississippi 
State University. Welcome.
    Our next witness is Dr. Kathryn McKinley, who is a 
Principal Researcher at Microsoft and an Endowed Professor of 
Computer Science at the University of Texas at Austin. Dr. 
McKinley has a broad area of research interests, and her 
research group has produced numerous tools, algorithms, and 
methodologies are used in a variety of industrial settings. Dr. 
McKinley earned her B.A., M.S., and Ph.D. from Rice University. 
Welcome.
    Our final witness today is Dr. Ed Lazowska. Mr. Lazowska 
holds the Bill and Melinda Gates Chair in Computer Science and 
Engineering at the University of Washington. He also serves as 
the Founding Director of the University of Washington eScience 
Institute and the Chair of the Computing Community Consortium. 
Dr. Lazowska has received national recognition for his research 
and leadership activities. Dr. Lazowska earned his Ph.D. from 
the University of Toronto. Welcome.
    As our witnesses should know, spoken testimony is limited 
to five minutes each after which Members of the Committee will 
have five minutes each to ask questions. I now recognize Dr. 
Gaither to present her testimony.

                TESTIMONY OF DR. KELLY GAITHER,

                  DIRECTOR, VISUALIZATION LAB,

                TEXAS ADVANCED COMPUTING CENTER,

                  UNIVERSITY OF TEXAS, AUSTIN

    Dr. Gaither. Thank you, Chairman Bucshon, Ranking Member 
Lipinski, and Members of the Subcommittee for this opportunity. 
I am here as the Director of Visualization and a Senior 
Research Scientist at the Texas Advanced Computing Center.
    At TACC, our mission is to enable discoveries that advance 
science and society through the application of advanced 
computing technologies. We support thousands of researchers and 
partner with companies like Dell, Intel, Shell, Chevron, and BP 
to push the state of the art. Science can only advance if we 
continue to push the envelope.
    Computational science or the application of computer 
simulations to scientific applications is the third pillar of 
21st century science. Significant progress has been made in the 
last two decades because of federal investments in 
interdisciplinary teamwork. As an interdisciplinary researcher, 
I have been funded to work on projects like the visualization 
and data analysis of massive scale turbulent flow simulations--
important because of its applications in aircraft and 
automobile design, energy, storm damage, and galaxy formation.
    I am also the principal investigator for the largest 
visualization cluster in the world. With this project, we have 
enabled more than 619 researchers conducting large-scale 
computational science, and we have trained hundreds of people 
at institutions across the Nation. I am also the director of a 
visualization laboratory, home to one of the largest tile 
displays in the world. We have had more than 18,000 people come 
through those doors, many of which are K-12 students.
    We are a country of innovators and this innovation must be 
fostered with significant investment and patience. The NITRD 
program gives us that funding for resources at a scale 
prohibited for individual institutions. With respect to funding 
opportunities in NITRD, let me first commend the efforts to 
create national programs with increasing focus on data. 
However, this should not be done to the exclusion of funding 
research and development and modeling, simulation, and 
visualization. It is imperative that we strive to build a 
balanced portfolio of funding opportunities.
    We can see the evidence of a shift in the Nation's high-end 
computing strategy. The decrease in funding is not limited to 
the resources but extends to many of the underlying scientific 
applications and crucial software tools as well. This dip in 
funding is at odds with the increased need for high-end 
computing technologies and open science research.
    How can we ensure a persistent pipeline to meet the 
Nation's IT needs? I graduated from high school in one of the 
poorest states in the Nation at a time when young women were 
not encouraged to go to college. I have been supported by 
federally-funded computational research dollars since I was 24 
years old. I am the by-product of federal funding, and 
persistent funding at that. Without this funding, I would not 
have had the opportunities to participate in many of the 
interdisciplinary research projects that focus on solving some 
of society's most challenging issues. We need opportunities to 
educate students in interdisciplinary research and provide 
invaluable hands-on experience working with teams of 
researchers. We are lacking a thriving focus on research and 
development that is not driven by quarterly profit bottom line.
    In closing, I would like to reiterate my appreciation for 
the invitation to speak to you today about the impact that the 
NITRD program has had in my research. To summarize, first, we 
must make significant continued investments in the NITRD 
program. As a researcher, I know that investments in research 
will keep us at the forefront of innovation. We must not 
shortchange our commitment and vision to continue the successes 
of those that have come before us.
    Second, we must maintain a balanced portfolio of NITRD 
funding opportunities for researchers in computational science. 
We must find a way to continue to increase investment not to 
the exclusion of existing funding streams. It is a combination 
of efforts that is most likely to be fruitful.
    And last, we must provide exciting opportunities to entice 
our students to stay in computational science. We must deal 
head-on with the brain drain that our universities are 
experiencing in undergraduate and postgraduate education. While 
there is no magic bullet that will solve this problem, it seems 
clear that a new approach is warranted. This new approach 
requires an investment in both curriculum development and 
student research to provide exciting opportunities for future 
generations of scientists.
    [The prepared statement of Dr. Gaither follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you, Dr. Gaither.
    I now recognize Dr. McKinley for five minutes to present 
her testimony.

               TESTIMONY OF DR. KATHRYN MCKINLEY,

                PRINCIPAL RESEARCHER, MICROSOFT

    Dr. McKinley. Chairman Bucshon, Ranking Member Lipinski, 
and Members of the Subcommittee, thank you for inviting 
Microsoft to testify and your attention to how IT innovation 
helps the Nation create jobs and grow our economy. I am Kathryn 
McKinley. My experiences with the National Science Foundation, 
the National Academies, DOE, and DARPA, and as an Endowed 
Professor at the University of Texas at Austin, and my current 
role as Principal Researcher at Microsoft inform my testimony.
    First, I would like to point out that an interconnected IT 
research ecosystem has made the United States the world's 
leading economy with the best defense capabilities. The results 
of IT research include new billion-dollar industries that 
create jobs and make us safer, healthier, more efficient, and 
delight us.
    One example is the Microsoft Xbox 360 Kinect. With Kinect, 
your voice and your body are the game controller. Kinect 
combines decades of research at Microsoft and elsewhere on 
artificial intelligence, graphics, motion detection, and voice 
recognition. New technologies inspire more innovation, and now, 
Kinect is advancing learning, health, and retail. Kinect exists 
because Microsoft's business strategy is to make long-term 
investments and bets. Twenty years of investment in Microsoft 
Research has made Microsoft Research the largest and most 
successful computing research organization in the world. Yet 
Microsoft thrives as a part of a larger research ecosystem 
partnering with government, industry, and academia.
    Key IT research areas for our Nation and for NITRD include 
big data, privacy, and building trustworthy systems. A 
particularly important research challenge that I work on is 
that your computer is no longer getting faster every year. In 
the past, doubling of performance every two years drove new 
computing capabilities and accelerated innovation in IT. 
Unfortunately, current technology is up against some 
fundamental limits, and no new technologies are ready to 
overcome them.
    The technical challenges are compounded by global 
competition. Substantial investments in Asia and Europe have 
increased their contributions to the research ecosystem and 
their participation in the global IT economy. While the United 
States still enjoys an advantage, the gap is narrowing. 
Significant research investments in areas such as 
semiconductors, materials, architecture, and programming 
systems are needed. If the overall rate of innovation slows, it 
will be easier for other countries to close the gap and the 
United States will lose its economic and national security 
advantages.
    Let us talk about education. Technology is and will infuse 
all aspects of life in the 21st century. People who understand 
IT will flourish in the global knowledge economy. The U.S. 
computing workforce demands are outpacing its supplies. Forty 
thousand people earned a computing Bachelor's degree last year, 
but that is not enough because we are projected to have 120,000 
openings for jobs that require a computer science degree. The 
United States, including federal agencies, must strengthen 
computing education at all levels, including K through 12, to 
fill these jobs.
    A particular challenge in computing is the limited 
participation of women, Hispanics, and African-Americans. My 
community, through efforts such as the Computing Research 
Association, where I am a Board Member and a Committee Co-
Chair, has programs that are proven to increase the success of 
women and minorities by mentoring Master's and Ph.D. graduate 
students and giving undergraduates research experiences. But we 
need more success stories. The United States simply cannot 
afford to fail to capitalize on the creativity of 70 percent of 
its population if it wants to remain globally competitive. The 
IT knowledge economy depends on the flow of the best people and 
ideas between academia, government, and industry.
    I would like to finish with a little of my own personal 
story. I did not go to college intending to become a researcher 
or even a computer scientist. I came from a family of lawyers. 
I took a computer science course and then Professor Don Johnson 
at Rice University hired me for a summer research project. That 
experience opened my eyes to the excitement of solving problems 
where no one knows the answers. And that could be my job. But 
tight integration of research and education makes the U.S. 
research universities the best in the world.
    I thank you for this opportunity to testify and your 
Committee's long-standing support for IT research and 
innovation. I would be pleased to answer questions.
    [The prepared statement of Dr. McKinley follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you, Dr. McKinley.
    I now recognize Dr. Lazowska to present his testimony.

                 TESTIMONY OF DR. ED LAZOWSKA,

                  BILL AND MELINDA GATES CHAIR

              IN COMPUTER SCIENCE AND ENGINEERING,

                    UNIVERSITY OF WASHINGTON

    Dr. Lazowska. Well, I, too, would like to thank Chairman 
Bucshon, Ranking Member Lipinski, and the Members of the 
Subcommittee for the opportunity to speak today.
    My name is Ed Lazowska. I am a longtime faculty member at 
the University of Washington. I have been a member or Chair of 
many federal IT Advisory Committees. Most recently, I was Co-
Chair of the Working Group of the President's Council of 
Advisors on Science and Technology that conducted a review of 
the overall NITRD program in 2010.
    What that review found--and you have heard about this from 
the other two witnesses--is that the research ecosystem 
supported by the NITRD program has been the primary factor in 
America's world leadership in information technology. And if we 
are going to remain competitive in this increasingly 
competitive world, there is honestly no field in which it is 
more important to maintain our leadership than information 
technology.
    So what I want to do today is focus on one aspect of my 
written testimony, and that is the unique and essential role of 
the relatively modest federal investment in IT R&D. The 
National Research Council over many years, going back to 1995, 
a report I participated in, has constructed a series of 
diagrams that attempt to explain how this works, how this 
ecosystem fits together. I want to say for Mr. Lipinski, who 
has seen previous versions of this diagram, that this one is 
new and improved, just out a few months ago. And in fact, the 
individual who produced this is Peter Lee, who is the Vice 
President for Microsoft Research in the United States.
    This diagram is a timeline that runs from bottom to top and 
it tracks the growth of eight major sectors of the IT industry, 
broadband and mobile, microprocessors, personal computing, and 
so on. They are labeled near the top. There are three lines for 
each sector. Let me just take a second and explain this. The 
red line shows research performed in universities mostly with 
NITRD funding. The blue line in the middle shows when industry 
R&D organizations were working in the same sector largely with 
private-sector funding. The dotted black line shows when the 
first product was introduced. When that line becomes green, it 
became a billion-dollar market sector. When the green line gets 
thicker, it becomes a $10 billion market sector. The small 
diagonal arrows you can barely see are the flow of specific key 
people and ideas between academia and industry and between the 
sectors. It looks like someone just tossed those on there, but 
in fact, there is a spreadsheet that says what each one 
corresponds to. And above the lines are some of the 
multibillion-dollar companies that resulted in these sectors.
    So the diagram shows many key aspects of this really 
incredibly productive IT R&D ecosystem. And let me just note a 
few of them. First, research can take a long time before it 
pays off, in many of those examples, 15 years from critical 
research advances to the first product introduction. Secondly, 
research often pays off in unanticipated ways. We are not very 
good at predicting where the biggest impact is going to be. 
Third, advances in one sector often enable advances in other 
sectors. It really is an interconnected network. Fourth, the 
research ecosystem is fueled by the flow of people and ideas 
back-and-forth between academia and industry. And finally, 
every one of these multibillion-dollar sectors has a clear 
relationship to federal research investment.
    So it is important to realize--and you have heard it from 
the other two witnesses--that federal investment does not 
supplant private-sector investment; it complements it. Here is 
why: the vast majority of industry R&D is development, the 
engineering of the next release of the product. This is totally 
appropriate. Developing products is hard. Also, research takes 
many years to pay off in many cases. Even at Microsoft and IBM, 
which invest far more than any other IT companies in work that 
looks out more than one or two product cycles, this investment 
constitutes only about five percent of total R&D. At most 
companies it is 0 percent in IT.
    Here is a great example--in addition to Kinect which you 
heard about from Dr. McKinley. It is this cute little iPad. 
Now, it is a product that maybe only Apple could have designed, 
just like Kinect is a clever product maybe only Microsoft could 
have designed, but every distinctive aspect of this device--the 
multi-touch interface, the sensors, the processor--has its 
origins in federally-sponsored research.
    So IT R&D leads to exciting companies, but it does far 
more. It drives the economy, as you heard, directly through the 
growth of the IT industry, indirectly through productivity 
gains in other sectors.
    Looking to the future--and Chairman Bucshon did a wonderful 
job of describing this in his introductory remarks--dramatic 
advances are necessary in meeting all of our national and 
global challenges; improved healthcare, advanced manufacturing, 
increased national and homeland security, revolutionizing 
transportation, personalized education--hopefully, we will talk 
about MOOCs in a minute--putting the smarts in the smart grid, 
driving advances in all fields.
    Given the broad influence, it is not surprising that the 
demand for IT workers is strong. Dr. McKinley spoke to that 
clearly. What I would say is all STEM is important, but from a 
workforce point of view, all STEM is not created equal.
    So to summarize, computing research changes our world, 
drives our prosperity, enables advances in all other fields, 
and is essential to meeting our national and global challenges. 
The government has played an essential role in fostering these 
examples. The future is bright. There is opportunity and need. 
There is also tremendous need for well-educated graduates. The 
government's role in supporting fundamental research is 
essential and doesn't supplant private sector investment.
    Thank you very much.
    [The prepared statement of Dr. Lazowska follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Bucshon. Thank you. And I would like to thank all 
the witnesses for their testimony and being available for 
questioning.
    I want to remind Members that the Committee rules limit 
questioning to five minutes, and as Chair I will open and 
recognize myself for five minutes at this point.
    I will some response from all of you on this one. In 
previous NITRD hearings, we have heard that IT's role in 
national security, national competitiveness, and national 
priorities is far broader than high-performance computing 
alone. As we continue to learn more about the recent National 
Intelligence Estimate Report regarding China's use of cyber 
espionage, can you expand on how the IT field has influenced or 
continues to influence national security? And whomever wants to 
go first. Dr. Lazowska?
    Dr. Lazowska. I will give it a try.
    I think what has happened in the past 20 years is that 
high-performance computing is as important as it ever was and 
of ever-increasing importance, but what has happened is a set 
of other aspects of the field has risen to perhaps comparable 
importance. All right? So this was called the High Performance 
Computing Act of 1991 because that was clearly the dominant 
aspect of the field in importance.
    Now, where we stand in robotics, where we stand in mining 
vast amounts of data for intelligence purposes, all sorts of 
other aspects of the field are just as important to our 
security and to our competitiveness. So, for example, big data 
clearly matters in assessing threats. Artificial intelligence 
clearly matters in understanding communiques from other nations 
doing language translation, things like this. So in addition to 
information technology being important in countering all sorts 
of threats, it is a threat itself. All right?
    So there has, as you noted, been lots of attention to cyber 
warfare recently. This is an area where, honestly, we lag 
behind. That is, the aggressors have an advantage over the 
defenders and we have been defending for decades with what I 
have to say are heroic Band-Aid efforts. And we need to really 
rethink the design of our systems to make them more secure. And 
that is a research challenge.
    Chairman Bucshon. Thank you.
    Anyone else have----
    Dr. McKinley. So I would just like to add to Ed's remarks 
that 20 years ago, defense was driving IT. We had big 
investments in technologies that were really directly 
applicable to defense, but because of the rise in industry and 
consumer products that use IT, we now have a huge influence on 
the capabilities of defense, driven by capabilities of things 
you also want to buy. And so, for example, a Smartphone is very 
helpful to a soldier as well as helpful to you when you are 
trying to get your kids to their hockey games. So that the 
driving of what technologies you want to use in the field, as 
well as the technologies that are useful for consumers have 
come together. And this is where the narrowing of the gap is a 
problem because you want to have better capabilities. And that 
requires being ahead of the game and being ahead of industry as 
well and ready with the new technologies.
    Chairman Bucshon. Dr. Gaither?
    Dr. Gaither. Yes, so I would like to just address it very 
briefly. I would not look at this as an either/or problem. So I 
think it really does--I guess it goes back to my point about 
interdisciplinary work. I think you should look at it as a 
combination of high-performance computing, as a combination of 
the data mining. Clearly, that is going to play a very large 
role. But I would look at it as a portfolio of tools to solve 
this problem, not one versus the other.
    Chairman Bucshon. Great. Thank you. I will now recognize 
Mr. Lipinski for five minutes.
    Mr. Lipinski. Thank you. I will let you continue on--since 
you started talking about cybersecurity, I will jump to that 
question. Obviously, it is a big issue becoming bigger, and I 
think we are going to learn, unfortunately, maybe in a dramatic 
fashion how critical it is to us right now.
    I cosponsored a bill last Congress with Congressman McCaul 
called the Cybersecurity Enhancement Act. We are going to be 
introducing that again. Among other things, it would require a 
federal strategy for assessing cyber threats and coordinate 
cyber R&D to address these threats. Part of the 2013 PCAST 
report on NITRD recommended greater coordination among agencies 
on cybersecurity R&D. In what ways do you think--you touched on 
this little bit--what ways do you think the Federal Government 
could better coordinate research efforts in cybersecurity? Dr. 
Lazowska?
    Dr. Lazowska. One comment I would make is that all of these 
studies have found that NITRD is one of the most successful 
coordination efforts. So I think we have to state that at the 
outset. In cybersecurity, there is a particular challenge 
because of classification. And I think an important issue is 
attempting to distill the essence of classified problems so 
that a broader range of investigators can work on them. All 
right?
    So most universities don't do classified research, but many 
of the best cybersecurity researchers are in universities. I 
know that DARPA has worked on this. The National Science 
Foundation, of course, supports a large number of research 
programs in sort of the unclassified core of cybersecurity. But 
honestly, it is an area that needs a better research workforce, 
as well as a better practitioner workforce.
    I would like to mention one additional reason why this is 
so important, and that is every aspect of our Nation's critical 
infrastructure is now controlled by computer systems. All 
right? So this just ten years ago was much less so for, let us 
say, the power grid, all right? These days, all of these are 
complex, interconnected systems subject to attack from 
information technology in ways that can actually damage hard-
to-replace physical infrastructure. So we truly do need more 
communication and collaboration among the agencies.
    The Senior Steering Group that NITRD has created in the 
past couple of years since the 2010 report has gone a long way 
towards addressing the coordination issues.
    Mr. Lipinski. Any other comments? I will move on. Okay, 
great. All of you are computer scientists. I actually have a 
background as an engineer but also in--with the dark side got 
my Ph.D. in political science. I am also a social scientist. In 
your testimony, you all discussed the need for computer 
scientists to collaborate with social scientists to address 
many scientific and technological challenges. Can you elaborate 
on the role of social and behavioral scientists do and should 
play in NIT R&D? And are there sufficient federal mechanisms to 
support multidisciplinary collaboration among computer 
scientists, engineers, and social scientists?
    Let me say that I know there is a lot of bad social science 
research out there, but I think, unfortunately, it is all 
getting lumped together and attempted to be thrown out. But can 
you talk to the role that social and behavioral scientists can 
play in NIT R&D? Dr. McKinley?
    Dr. McKinley. Humans interact with computers, so if we 
don't understand how humans want to interact with them, if we 
don't understand the social sciences, if it is not a 
collaboration, we can't make IT work for people because it is 
about the people. And yes, there is bad research in every area 
unfortunately, but there is mostly good research. And a great 
example is health. If you want to make people--or if you want 
to use your cell phone that you are carrying around to help you 
be healthier, we might want to remind you to take a walk or eat 
better, but we don't want you to--we need to understand how 
those hints help you or maybe they discourage you and you get 
mad at your phone and you stop doing it. So some of these basic 
issues on how you use IT for health require both doctor 
collaborations, user interface, and people who understand how 
human beings make decisions.
    Mr. Lipinski. Dr. Gaither?
    Dr. Gaither. So to further that point, visualization is all 
about really verifying visualizations. We can't really do that 
quantifiably right now. So we do them with user studies because 
visualization is about how people perceive the images that they 
are seeing.
    I also want to address the point about the 
interdisciplinary research. So I do think that there is a 
frightening shortage of funding going into interdisciplinary 
research. And let me say, while it may be a little cliche, the 
sum of putting people together from different backgrounds 
really is greater than the individual parts. And I think the 
magic happens when you put people together from very different 
backgrounds working towards a common goal.
    Mr. Lipinski. Thank you very much. I am out of time. I 
yield back.
    Chairman Bucshon. I recognize Mr. Stockman for five 
minutes.
    Mr. Stockman. I have kind of a concern because I am hearing 
an underlying theme about cybersecurity. And I guess I would go 
through the three of you doctors who are professionals and tell 
us, hey, how much--if we need more funding, how much more 
funding do we need for cybersecurity to defend against it? And 
two, are we doing enough work towards that? I was shocked--I 
was at a Chevron gas station and actually the gasoline pumps 
were shut down because of a cyber attack. And I don't think 
people realize to what degree, how deeply we are dependent upon 
computers and satellites. I guess I would go through and tell 
us from our job--to do our job right, are you getting enough 
funding? And how much is enough and what do we need to do?
    Dr. Lazowska. I am not going to be able to answer your 
question in specific terms I am afraid. There had been numerous 
calls for greater investments in fundamental research in 
cybersecurity. I think now, we are spending enormous amounts of 
money in short-term defenses, which are holding the threats at 
bay largely, although not entirely as you point out. We are not 
spending enough laying the groundwork for systems that are 
designed in a way that they will actually be resistant to 
attack. So the problem is that you can't just bolt security on 
to a complex hardware/software system at the last minute after 
it has been designed in an insecure way. We have learned a huge 
amount in the past ten years about how to build reliable and 
secure systems. Microsoft has in fact been a leader in this. 
The quality of Microsoft's code and its resistance to 
penetrations has improved enormously in the past decade. But we 
do need significantly greater investment in the fundamentals.
    I was the co-chair of the late PITAC, President's 
Information Technology Advisory Committee, under President 
Bush. We wrote a report on cybersecurity that called for 
significantly increased investment in the National Science 
Foundation and other agencies, and we didn't get reappointed as 
a reward for our efforts. It is a serious issue.
    Mr. Stockman. I don't mean to interrupt but when you say 
significant, is there a number that you targeted or suggested?
    Dr. Lazowska. Unfortunately, the problem is that it is a 
portfolio. You need an investment in the long-range work. You 
need to continue the investment in blocking threats, and you 
need to span----
    Mr. Stockman. But I mean is there a price tag that we can--
I mean we have to----
    Dr. Lazowska. We called eight years ago for an investment 
of, I believe, another $90 million at the National Science 
Foundation, which I view as a tiny amount of money relative to 
the potential cost of insecurity. But you do have to realize 
that the payoff from that investment would be some number of 
years down the road.
    Mr. Stockman. That is more than what they have stolen from 
some banks through----
    Dr. Lazowska. Less than they have stolen from some banks.
    Mr. Stockman. Yes, that is what I meant. Yes, that is what 
I am saying----
    Dr. Lazowska. It is less than what they have stolen from 
some gas stations, I am sure----
    Mr. Stockman. Yes, exactly.
    Dr. Lazowska. This--it is a very serious issue, sir.
    Mr. Stockman. In fact, I think in 10 seconds we probably--
less than that, we have spent that.
    Dr. McKinley, I have a question for you. You actually 
worked--and I have got to hurry up because we are out of time--
but you worked with the private sector or you have. You also 
had federal and state. Which in your opinion do you see the 
most efficiency? If we had appropriated money, where would you 
put that funding?
    Dr. McKinley. So different research needs to be done at 
different times and different places. So one of the reasons I 
moved from academia to Microsoft Research is because many of 
the problems that I work on, such as making your phone last 
longer and runtime systems, which I won't tell you exactly what 
that means, but that right now these areas are turning into 
actionable products and things that people want to use. And so 
right now is the right time for some of the groundwork that my 
research laid to move into industry. And it is that flow of 
people who come with their ideas and their expertise that makes 
the whole system work. Like I loved academia. I might go back 
someday, but this is the right place for me to be right now. 
And that ecosystem is represented by my career and as a grad 
student my first funding was National Science Foundation, a 
Science and Technology Center, which was a big bet on parallel 
computing, and that is technology we really need today, and I 
am still an expert in that area.
    Chairman Bucshon. Gentlemen yields back.
    Ms. Esty, you are recognized for five minutes.
    Ms. Esty. Thank you very much. You have all described how 
important federal investments are in NITRD to this country. And 
as you know, we face a rather challenging budgetary climate 
right now. For Dr. McKinley, the questioned frequently arises, 
you know, why can't more of this be done out of the private 
sector? So if you can talk about what you think the 
implications are if we continue to cut back on basic R&D, what 
is the likelihood that Microsoft or other private companies 
would fill in the gap of the research that now is being done on 
basic R&D?
    Dr. McKinley. So most companies aren't making even the 
modest investment that Microsoft is making. A startup company 
takes some ideas that are in a university and doesn't exist 
until those ideas exist and then they become a billion-dollar 
industry and a competitor of Microsoft's, like Google. So those 
kinds of activities just won't happen in big established 
companies, even ones that believe as strongly in research and 
the research ecosystem as Microsoft.
    Ms. Esty. I would also like you--all three of you have 
mentioned the importance of education. I have a junior in 
college who is doing computer science and astrophysics. But 
there are not many girls in his class, I will tell you that, 
very few young women. Could you talk about what you see as the 
opportunities and what actually we can be doing particularly at 
the younger ages? What can we be doing in this country, if we 
are going to get U.S. competitiveness, which is this long 
pipeline? And as he tells me, Mom, these classes are really 
hard. I could be doing much better in economics or in my major, 
political science, but, you know, computer science and physics 
are really hard. So what can we--your insights, what can we do 
with MOOCs, with other things? What should we be doing as a 
country and how does R&D fit into that?
    Dr. McKinley. So we have to have better math and IT 
education. Right now, computer science is--the AP class is only 
taught in five percent of high schools across the country. If 
people, especially women and minorities, don't have exposure to 
computer science as high school students, they never decide to 
pick it up in college anymore, because now, there is a 
dichotomy of skills and they feel like they are already behind 
because it is a hard major. And so I think what we need to be 
doing is prepping more of our students in high school to have 
the skills that at least it is a choice for them. So more 
rigorous math and science classes and the preparation, the 
right sets of skills so that they can do them.
    Dr. Lazowska. A comment that I think is important is that 
computer science needs to be viewed as part of STEM. In the 
State of Washington, where I am, it is part of essentially 
commercial education. It is in there with woodshop and metal 
shop and cooking and, you know, I took print shop when I was in 
high school in Washington, D.C., but I don't use it a lot 
today. Every student going forward needs to understand what we 
call computational thinking. Every field, whether it is biology 
or sociology, is utilizing computational thinking. That is 
models and algorithmic expression and decomposing problems into 
pieces you can solve and assembling and testing those results. 
We do this in our daily lives.
    So I think of programming as the hands-on inquiry-based way 
in which we teach computational thinking. It can be an end in 
itself but at the K to 12 level, computational thinking as part 
of STEM embodied in AP computer science, which uses programming 
as an inquiry-based way to teach that, is critical for all 
students.
    Dr. Gaither. So this is a subject I am pretty passionate 
about. And we lose a shocking number of our young girls around 
third or fourth grade and we never get them back. I have a 
daughter that is struggling right now as a junior to decide 
whether she wants to go into a STEM field or into art. It is 
really that far apart. I think we need to be a little more 
aggressive and get funding streams to connect what is going on 
in the undergraduate population and go all the way back into 
the educational pipeline as far back as third grade and get 
them thinking about the computational thinking but also give 
them examples. Why are we doing this? Why do we care? How will 
it benefit society? In my experience, the young girls that I 
have worked with, once you educate them about how it is going 
to impact society, they are all on board. They are interested.
    Dr. McKinley. So I just want to add the creativity part of 
computer science is often undervalued and that we want our 
young people to know that they can be creators of technology; 
it is not just consumers and users of it. And that it is now 
easy with some of the technologies such as robotics, Kinect, 
and other things to really help them if we provide some 
educational tools to go along with some of these technologies 
to help them see how to satisfy their needs for creativity in 
this field, which is very exciting.
    Dr. Lazowska. I wanted to say one word about MOOCs, which 
is something that you raised and other Members have raised. The 
notion that what you learn in college lasts you for a lifetime, 
that is a notion we left behind in the 20th century. So one 
thing MOOCs do is give you the opportunity to pick up knowledge 
that you need throughout your lifetime. I think there is an 
enormous amount of work to be done in understanding exactly how 
people learn through MOOCs and figuring out how to use the 
large-scale data to understand how people learn and how we can 
teach them better.
    We just ran a workshop the past two days in Washington, 
D.C., on exactly this subject, which is what is the science 
that we can do in this online scalable world to understand how 
to teach and learn better? So I think there are enormous 
opportunities here, particularly for lifelong learning. The 
jury is still out on whether it dramatically changes the four-
year college experience or K to 12.
    Chairman Bucshon. Thank you very much. Yeah, in the area of 
education--I will make a brief comment--there is a program in 
Indiana, in Indianapolis, called Project Lead the Way. I don't 
know if anyone has ever heard of that. But they are doing 
exactly what some of you are talking about in high schools 
around the country, a lot in Indiana, especially in Evansville 
where I live, and focusing on engineering education, hands-on, 
and how children and young adults learn better. If we can show 
them exactly what you all have said, how it impacts them and 
not just have it on a sheet of paper, so that is very 
important.
    I will now go into a second line of questioning. We have 
votes coming up at three o'clock but I think we have time for a 
second round of questioning. So I will yield to Mr. Lipinski.
    Mr. Lipinski. Thank you, Mr. Chairman. I always have to 
mention--I do mention I have two degrees in engineering but I 
always have to say that my wife has a degree in math, so we 
cover a few of the STEM fields there.
    I want to give Dr. Lazowska his opportunity here to do his 
very short version of walking us through the--something you had 
mentioned, talking about the technology that Apple pulled 
together to develop the iPad, how they originated with federal 
research investments. So you are going to get 4 minutes to do 
this. We have had this done--you posted a briefing before for 
the Committee on this, but can you give us a short version 
right now? Just show us how federal research wound up in this 
device.
    Dr. Lazowska. Thank you so much. Here are just a couple of 
examples. The multi-touch interface, this is the sort of zoom 
with your fingers, goes back to federally supported research. 
And in fact, in the late 1990s, Apple acquired a company spun 
out from the University of Delaware with federal funding in 
which this multi-touch gestural interface work was done. And 
that became the interface on the original iPhone and now on the 
iPad. That is one example. One of the great things about this 
device is the suite of sensors. There is a GPS, there is a 
compass, things like that, that tell you where you are, make 
driving directions work in your GPS unit or in your iPad or 
iPhone or Windows Phone I have to say. And these sensors go 
back to physics research in the 1930s, all right, which led to 
things like the atomic clocks which make the satellites work 
and eventually the GPS that we deployed in satellites. The 
miniaturization driven through the NITRD program of these 
components makes it possible to put it in a phone or a device 
like this.
    Academic and industry research--much of the academic 
research funded by the Federal Government has changed the way 
we design integrated circuits and the very architecture of the 
microprocessors. This is Dr. McKinley's--one of her 
specialties. But we designed microprocessors, including the one 
in this device, in an entirely different way to an entirely 
different architecture than we were doing before the NITRD 
investment. I could go on and on and I appreciate the 
opportunity, but the important thing is the ideas in this 
device go back in some cases to basic research 80 years.
    Mr. Lipinski. Thank you. And maybe we could do another--
maybe come in again. I know some new Members of the Committee 
maybe come in and get the extended version of----
    Dr. Lazowska. We would welcome the opportunity. Thank you.
    Mr. Lipinski. And since you didn't take up all the 4 
minutes, I wanted to throw out another question just in general 
about ideas about how can MOOCs help STEM education? How do you 
see those? Briefly, what are your thoughts on that? Dr. 
McKinley?
    Dr. McKinley. So the reason the jury is out on MOOCs is 
because we know that interactive activities with a great 
teacher who inspires you, with someone who sees what you are 
doing wrong as you try to work the problem, is one of the most 
effective ways to get people excited and to educate them. So my 
kids are seeing a flipped classroom right now where you have a 
lecture from your regular teacher and then in the classroom you 
are doing the example problems or working through a worksheet, 
and so then, the teacher is watching you.
    So I feel like that that is probably the most effective way 
that we are going to see MOOCs, so you have the best lecturer 
in the world, so people have polished this to be perfect, and 
then you have tutors or your teacher is now doing the hands-on 
watching how you understood, what kind of educational 
experience that you need. Because although many computer 
science lectures have just the professor talking at the front 
of the room, that is not where you really learn how to do 
computer science.
    So it has to be a mix of these different learning styles 
and MOOCs, I think, are going to have a role perhaps mostly in 
lifelong learning with very motivated people who already 
learned their learning style. But I think in terms of MOOCs 
having a huge effect on my 11-year-old, I don't think that is 
going to motivate him to do his math homework.
    Mr. Lipinski. I think there is a lot more to say here but 
just for my colleagues I think may have some questions, I am 
going to yield back right now, and hopefully, we could come 
back to this another time.
    Chairman Bucshon. Thank you. I yield to Mr. Stockman.
    Mr. Stockman. I just have a quick question. This to me is 
really phenomenal about computer security and everything. And 
as you can tell from the line of questioning, I think it weighs 
on a lot of our minds. And the Administration and Congress got 
$800 billion or some people say 1 trillion in stimulus money. 
Did any of you receive any of that or request any of that 
funding for computer security?
    Dr. McKinley. I got some of that money.
    Mr. Stockman. How much did you get?
    Dr. McKinley. I got $500,000 and I employed four graduate 
students over the three courses of the year, and those people 
are working at Intel, Facebook, and Google. And one of them is 
a professor. So that helped create jobs because I was able to 
hire graduate students and they are highly trained and----
    Mr. Stockman. Was--excuse me. I apologize. We are running 
short, close to vote, but was it specifically for computer 
security?
    Dr. McKinley. So this research spanned computer security 
and computer systems, which I think is this intersection of 
these two areas.
    Mr. Stockman. Well, I am wondering because in terms of 
money, in terms of government, you mentioned $90 million. That 
seems nominal for such an important critical--I mean our 
infrastructure is so dependent upon it, it is kind of, I don't 
know, bizarre that we don't spend more money defending the life 
system of this nation.
    Dr. McKinley. The issue with cybersecurity is that it is 
not just something, as Ed pointed out, that you can Band-Aid 
on----
    Mr. Stockman. Right, full-time----
    Dr. McKinley. --it has to be--you have to have it as part 
of the whole system that you are building. And so it is not 
going to be solved just by the people who are only experts in 
security working on it. It has to be partnership between people 
who work on runtime systems and power efficiency and designing 
architectures. These people have to work together and design 
from the get-go. And so it is not enough to just say, oh, we 
are going to explode the amount of money in computer security, 
because the way you make these partnerships is much more 
complicated and it requires a richer risk portfolio that has a 
lot of investments in different areas to get people to partner 
with them.
    Mr. Stockman. But Dr. McKinley, what I am saying from our 
standpoint, it would be helpful if we had some guidance because 
I think this is very critical to our infrastructure. And I 
appreciate you coming out today and I look forward to more 
guidance and how we can help you secure our Nation's lifeblood. 
I really appreciate all your help.
    Dr. McKinley. So then these large multidisciplinary 
projects where you are saying let us make some software systems 
more secure, let us make architectures more secure, so it is a 
partnering of people who are experts on cybersecurity and 
people who are experts on that topic area that you are trying 
to make more secure. I think those broad, multidisciplinary, 
big-bet kind of investments that NSF has done very well in 
several instances, including under my graduate career are the 
ways to make that happen. And that is much more complicated 
than just saying we are going to throw a ton of money at 
cybersecurity and good luck. And we don't care if you partner 
with anyone.
    Mr. Stockman. Well, I don't know about saying good luck. 
But I was actually following up on----
    Dr. McKinley. No, no----
    Mr. Stockman. --his comments that it was $90 million. And I 
thought in terms of our goals and our objectives, I think $90 
million would have been very wisely spent if we gave it to you.
    Chairman Bucshon. Thank you. And I--unless you want to 
comment on that.
    Dr. Lazowska. All I can say is that I agree with Dr. 
McKinley and with you. There are some areas of critical 
importance where we need greater investment, and it is 
important to realize that the federal investment in fundamental 
research is multiplied so many times over in its impact over 
the long term.
    Mr. Stockman. And I agree with you. I just wish we 
allocated billions instead of millions. Thank you. I yield 
back.
    Chairman Bucshon. Gentleman yields back.
    Ms. Esty?
    Ms. Esty. Thank you. Yes, I would like to follow that up a 
little bit because it seems to be part of this is the inherent 
tension between what we do, which tends to be dealing with the 
urgent; and the important, which is the long-term R&D. And so 
how we get the marriage of those two so that we address these 
important problems, Dr. Lazowska, you talked about the 
importance of patience in basic R&D.
    And we are facing--Representative Stockman and I sat in on 
the same briefing by General Alexander, which was completely 
terrifying to us about how incredibly vulnerable we are at 
every level and we haven't even really talked about the energy 
grid, which is truly stupefyingly terrible because we know they 
don't even have systems that are 20 years old. They are older 
than that right now. So that is a different order of challenge 
because they aren't even operating the way they ought to be, 
much less are they secure.
    So if any of you have thoughts on how we balance this need 
for problem-solving about these urgent, immediate needs and yet 
also fund basic research that we can't exactly say where is it 
going to lead but we do know it is going to lead to these 
important innovations down the road.
    Dr. Lazowska. I am afraid this is why we vote for you. 
These are very difficult challenges.
    I will say that shortly after September 11, 2001, I was on 
a National Academies panel that looked at IT R&D relative to 
national security, and what we concluded was precisely that 
investments in protecting our vast infrastructure that relies 
on computing are much more important than my inability to buy 
from Amazon one afternoon because the Internet is down. All 
right? So every element of our critical national infrastructure 
relies now inherently on information systems. And we have to 
recognize that does represent a huge vulnerability.
    Chairman Bucshon. All right. I would like to thank the 
witnesses for their valuable and very interesting testimony. 
And I have one of those new Xboxes by the way. My kids love it. 
It is just awesome. Got it for Christmas.
    There are Members of the Committee who may have additional 
questions for you and we will ask that you respond to those in 
writing. The record will remain open for two weeks for 
additional comments and written questions from the Members. The 
witnesses are excused and the hearing is adjourned. Thank you.
    [Whereupon, at 3:02 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
